 OFFICE OF AUDIT
 REGION 3
 PHILADELPHIA, PA




            Luzerne County Office of Community
              Development, Wilkes-Barre, PA

     Community Development Block Grant-Funded
        Business Development Loan Program




2013-PH-1001                                                      OCTOBER
      DRAFT – FOR DISCUSSION AND COMMENT ONLY – SUBJECT TO REVIEW AND        31, 2012
                                                                      REVISION
                                                        Issue Date: October 31, 2012

                                                        Audit Report Number: 2013-PH-1001




TO:            Nadab O. Bynum, Director, Office of Community Planning and Development,
                 Philadelphia Regional Office, 3AD
               //signed//
FROM:          John P. Buck, Regional Inspector General for Audit, Philadelphia Region, 3AGA


SUBJECT:       Luzerne County, PA, Did Not Properly Evaluate, Underwrite, and Monitor a
               High-Risk Loan


    Attached is the U.S. Department of Housing and Urban Development (HUD), Office of
Inspector General’s (OIG), final results of our review of Luzerne County, PA’s $6 million loan
of Community Development Block Grant funds to CityVest to revitalize the historic Hotel
Sterling and surrounding properties.

    HUD Handbook 2000.06, REV-4, sets specific timeframes for management decisions on
recommended corrective actions. For each recommendation without a management decision,
please respond and provide status reports in accordance with the HUD Handbook. Please furnish
us copies of any correspondence or directives issued because of the audit.

    The Inspector General Act, Title 5 United States Code, section 8L, requires that OIG post its
publicly available reports on the OIG Web site. Accordingly, this report will be posted at
http://www.hudoig.gov.

   If you have any questions or comments about this report, please do not hesitate to call me at
215-430-6729.
                                             October 31, 2012
                                             Luzerne County, PA, Did Not Properly Evaluate,
                                             Underwrite, and Monitor a High-Risk Loan




Highlights
Audit Report 2013-PH-1001


    What We Audited and Why                   What We Found

We audited Luzerne County’s $6               The County did not properly evaluate, underwrite, and
million loan of Community                    monitor its loan to CityVest. After nearly 10 years and
Development Block Grant funds to             $6 million expended, the project won’t meet its
CityVest that was expected to be used        designated national objective of job creation. The
to revitalize the historic Hotel Sterling    County and the City of Wilkes-Barre plan to demolish
and surrounding properties. We did the       the hotel and clear the site although no permanent jobs
audit because HUD Office of Inspector        were ever created. Therefore, the $6 million in Block
General (OIG) audit report 2012-PH-          Grant funds expended for this project is an ineligible
0001 1 identified this long standing         expenditure of taxpayer dollars. CityVest also used
open Block Grant activity and because        HUD funds inappropriately to make an unreasonable
we received a citizen complaint alleging     and unnecessary expenditure of $303,000 to satisfy
possible misappropriation of these           two municipal liens against a property that it had
funds. Our objective was to determine        purchased. It was the responsibility of the former
whether the County properly evaluated        property owner to satisfy the liens.
and underwrote its loan to CityVest and
whether the project met its designated
national objective.

    What We Recommend

We recommend that HUD require the
County to reimburse its business
development loan program $6 million
from non-Federal funds for the
ineligible expenditures related to the
Hotel Sterling project and that it require
the County to develop and implement
comprehensive procedures for
evaluating, underwriting and
monitoring proposed projects.

1
 “HUD Needed To Improve Its Use of Its
Integrated Disbursement and Information
System To Oversee Its Community
Development Block Grant Program,” dated
October 31, 2011
                           TABLE OF CONTENTS

Background and Objective                                                       3

Results of Audit
      Finding: The County Did Not Properly Evaluate, Underwrite, and Monitor   4
      a High-Risk Loan

Scope and Methodology                                                          16

Internal Controls                                                              17

Appendixes
A.    Schedule of Questioned Costs                                             19
B.    Auditee Comments and OIG’s Evaluation                                    20
C.    Project Budget From Loan Application                                     32
D.    Project Budget From Loan Agreement                                       33
E.    Project Budget From Amended Loan Agreement                               34
F.    CityVest Expenditure Summary                                             35




                                           2
                      BACKGROUND AND OBJECTIVE

Luzerne County, PA, is a Community Development Block Grant entitlement grantee. The U.S.
Department of Housing and Urban Development (HUD) annually awards grants to entitlement
grantees to carry out a wide range of community development activities directed toward
revitalizing neighborhoods, economic development, and providing improved community
facilities and services. The County consists of 76 municipalities, governed by a three-member
board of commissioners. It manages its community development programs through its Office of
Community Development located at 54 West Union Street, Wilkes-Barre, PA. The executive
director of the Office of Community Development is Mr. Andrew D. Reilly.

The County’s Business Development Loan Program is an economic development tool, funded by
HUD’s Community Development Block Grant program. The primary objective of the loan
program is to stimulate economic growth in Luzerne County by providing financial incentives
leading to the creation of new businesses or the expansion of existing businesses in the County,
creating new employment opportunities and strengthening existing jobs, stabilizing or increasing
the tax base, and increasing private investment. The County’s board of commissioners, through
the County’s Office of Community Development, is responsible for the development,
administration, implementation, monitoring, and evaluation of the loan program. The loan
program provides low-interest financing to firms carrying out eligible economic development
type projects meeting program objectives.

CityVest is a not-for-profit community development corporation, based in Wilkes-Barre, PA. Its
mission is to undertake housing and commercial development projects to advance the economic
revitalization of northeastern Pennsylvania’s Wyoming Valley, particularly the downtown urban
centers of Wilkes-Barre, Nanticoke, and Pittston. CityVest was founded in September 2000. In
September 2011, its board of directors considered dissolving the organization. Board meeting
minutes indicated that it did not dissolve at the urging of the County’s board of commissioners.

On October 2, 2002, CityVest submitted an application to the County requesting a loan of $4
million to revitalize the Hotel Sterling site, located in Wilkes-Barre, PA, including the
surrounding properties. The County entered into a $4 million, 20-year loan agreement with
CityVest on November 6, 2002. The agreement required CityVest to create 150 permanent full-
time-equivalent jobs with 80 of those jobs benefiting low- and moderate-income persons. In
September 2006, CityVest requested an additional $2 million loan for the project. On March 22,
2007, the County amended its loan agreement with CityVest and provided an additional $2
million for the project. The revised agreement required CityVest to increase the number of
permanent full-time-equivalent jobs to 175 and the number of those jobs benefiting low- and
moderate-income persons to 90.

Our objective was to determine whether the County properly evaluated and underwrote its loan
to CityVest and whether the project met its designated national objective.




                                               3
                                RESULTS OF AUDIT


Finding: The County Did Not Properly Evaluate, Underwrite, and
Monitor a High-Risk Loan
The County did not properly evaluate and underwrite its loan of $6 million to CityVest. The
project won’t meet its job creation national objective. This condition occurred because the
County lacked comprehensive procedures for evaluating and underwriting proposed projects
before approving business development loans and did not properly monitor the project. The
County’s lack of objective evaluation and underwriting of the project and its lack of proper
project monitoring contributed to $6 million in Block Grant funds being spent on an incomplete
project that failed to achieve its job creation national objective. The County believed its
evaluation and monitoring procedures were sufficient. Since the project won’t meet its
designated national program objective, the related funds were ineligible program expenditures.


 The County Was Responsible
 for Evaluating and
 Underwriting the Loan

              The County was responsible for properly evaluating and underwriting its $6
              million loan to CityVest. HUD regulations at 24 CFR (Code of Federal
              Regulations) 570.209(a) provide the County guidelines designed to provide a
              framework for financially underwriting and selecting Block Grant-assisted
              economic development projects that are financially viable and will make the most
              effective use of Block Grant funds. The objectives of the underwriting guidelines
              include ensuring that project costs are reasonable; all sources of project financing
              are committed; the project is financially feasible; and to the extent practicable,
              Block Grant funds are disbursed on a pro rata basis with other finances provided
              to the project. However, the County’s policies and procedures for evaluating and
              underwriting its Block Grant loans consisted solely of a single-page checklist that
              failed to adequately cover key HUD guidelines.

              HUD’s underwriting guidelines recognized that different levels of review may be
              appropriate to take into account the size and scope of a proposed project.
              Although the HUD guidelines for evaluating project costs and financial
              requirements are not mandatory, HUD expects recipients to properly evaluate and
              underwrite these loans. HUD expects recipients, when they develop their own
              programs and underwriting criteria, to take these factors into account.




                                               4
                 Given that the $6 million loan the County made to CityVest was by far the largest
                 loan in its business development loan portfolio, 2 it was reasonable to expect the
                 County to have conducted more than a cursory level of evaluation and
                 underwriting before making the loan.

    The County Approved the Loan
    Although the Project Lacked a
    Plan

                 In the description of the proposed project in its October 2, 2002, loan application,
                 CityVest stated that “the exact future usage of the Hotel Sterling is unknown.
                 CityVest intends to seek developers to assist and/or operate the site at a later
                 date.” Despite these statements, the County entered into a $4 million loan
                 agreement with CityVest on November 6, 2002, or 35 days later.

    The County Did Not Ensure
    That Other Project Funds Were
    Committed to the Project

                 The County did not ensure that all needed sources of project funding were
                 committed at the time the loan agreement was signed. CityVest’s October 2,
                 2002, loan application showed that the budget for the project included the
                 developer’s equity of $850,000 and $3.2 million in funds from other sources (see
                 appendix C). A footnote at the bottom of the page stated that CityVest intended
                 to seek funding from at least five other Federal and State sources. However, the
                 same footnote also stated, “CityVest has not received approval for any of this
                 funding yet.” The audit evidence showed, however, that CityVest never applied
                 for $2.2 million of the $3.2 million it reportedly expected to obtain from other
                 sources to complete the project.

                 In the November 6, 2002, loan agreement, 35 days after CityVest applied for the
                 loan, the budget for the project again included the developer’s equity of
                 $850,000 3 and $3.2 million in funds from other sources (see appendix D).
                 However, at the bottom of the page were five footnotes indicating that the sources
                 of other funds were HUD, the U.S. Department of Commerce, the U.S. Economic
                 Development Administration, the U.S. Environmental Protection Agency, and the
                 Pennsylvania Department of Community and Economic Development. The
                 County had documentation to demonstrate that CityVest received a $1 million
                 grant from HUD for the project at the time the loan agreement was signed.
                 However, the grant was to be used for the Hotel Sterling project and another

2
  The County’s Business Development Loan Program portfolio as of February 29, 2012, consisted of 61 loans.
There were 37 loans of $500,000 or less, 10 loans between $500,000 and $1 million, 13 loans between $1 million
and $3.6 million, and 1 loan that was greater than $3.6 million—the $6 million loan to CityVest.
3
  Loan agreement exhibits A and B made CityVest responsible for the developer’s equity of $850,000.

                                                       5
                    project. The grant agreement did not indicate the amount of funds CityVest
                    would use for each project.

                    Lastly, the County’s Business Development Loan Program Handbook stated that
                    the program was intended to finance projects that would have a positive impact on
                    the County by leveraging a significant amount of private investment. 4 However,
                    the planned financing for this project did not include private funds, although the
                    president and chief executive officer of Guaranty Bank was a member of
                    CityVest’s board of directors.

    The County Did Not Properly
    Assess the Feasibility of the
    Project and Evaluate the
    Project’s Costs

                    The County alleged that a feasibility study for the project was performed in 2001
                    to support its evaluation of the project and its costs. The nine-page document,
                    dated June 15, 2001, and labeled a feasibility study, contained five pages of
                    photographs and drawings of the project site and a page providing information on
                    the physical location of the project site and background on CityVest. Although
                    the remaining three pages were numbered, the pages were labeled “sample budget
                    scenario” for “site considerations;” “project construction components;” and “soft
                    costs and summaries.” All three pages were marked “DRAFT” in bold letters.
                    This nine-page document did not constitute a valid feasibility study because, as
                    stated in its October 2002 loan application, CityVest did not know the exact future
                    use of the Hotel Sterling. Without knowing the exact future use of the site, there
                    were no valid, detailed project costs to be reviewed. Moreover, CityVest paid for
                    this study. There was no evidence that the County performed an independent
                    evaluation to assess the prospects for the project’s success. It was not clear what
                    CityVest intended to do with the loan funds.

                    The County’s policies and procedures for its business development loan program
                    included a single-page financial analysis checklist for evaluating loans. The
                    County believed its evaluation procedures were sufficient. The County completed
                    this form for the CityVest loan. However, the form did not provide sufficient
                    evidence that the County performed a detailed evaluation of the project costs.
                    The County marked 7 of the 10 checklist factors “N/A.” It marked the other three
                    factors affirmatively, indicating that it had obtained cashflow statements,
                    examined the proposed costs, and tested for reasonableness of the costs.
                    However, there was no cashflow statement in the County’s files and no
                    documentation to demonstrate that it had examined and tested the reasonableness
                    of the costs. The only document attached to the checklist was a simple
                    spreadsheet showing a project square footage and cost summary over two phases
4
    Leveraging a significant amount of private investment was the first of three impacts listed in the handbook.

                                                            6
           for the project and a list of funding sources for the first phase. The list of funding
           sources totaled nearly $22.4 million, including $13 million in private funding.
           However, as stated above, the exact future use of the Hotel Sterling was unknown,
           and the financing for this project, as disclosed in the loan agreement, did not
           include private funds. Therefore, the relevance of the data on the spreadsheet was
           dubious.

The Project Did Not Comply
With HUD’s Jurisdiction
Requirements

           The County did not have documentation in its files to demonstrate that it
           complied with jurisdiction requirements before or after making its loan to
           CityVest. The regulations at 24 CFR 570.309 state that Block Grant funds may
           assist an activity outside the jurisdiction of the grantee only if the grantee
           determines that such an activity is necessary to further the purposes of the
           Housing and Community Development Act of 1974 and the recipient’s
           community development objectives and that reasonable benefits from the activity
           will accrue to residents within the jurisdiction of the grantee. The regulations also
           require the grantee to document the basis for such determination before providing
           Block Grant funds for the activity. In this case, the County was the grantee, and
           the City of Wilkes-Barre (also an entitlement grantee like the County) was the
           recipient because the Hotel Sterling is located in Wilkes-Barre.

The County Did Not Properly
Monitor the Project

           The County had no documentation in its loan files to demonstrate that it properly
           monitored the project. The County’s monitoring procedures were weak. They
           focused solely on job creation. They did not include procedures for monitoring a
           project’s progress toward completion of its objective and its compliance with
           HUD’s and other applicable requirements. The County believed its monitoring
           procedures were sufficient. Regulations at 24 CFR 85.40(a) state that grantees are
           responsible for managing the day-to-day operations of grant- and subgrant-
           supported activities. Grantees must monitor grant- and subgrant-supported
           activities to ensure compliance with applicable Federal requirements and that
           performance goals are achieved.

           On September 6, 2006, CityVest requested an additional $2 million loan to
           supplement the $4 million it had already received from the County for the project.
           On September 21, 2006, the County’s board of commissioners granted
           preliminary approval to increase the amount of the loan because CityVest claimed
           that it needed the funds to enable it to proceed with the next redevelopment steps
           without delay. The project budget from the amended loan agreement showed that

                                             7
                 $200,000 was budgeted for land or building acquisition (see appendix E), which
                 was no increase from the original budget included in the original loan agreement,
                 and $500,000 was budgeted for professional and financial fees (see appendix E),
                 which was an increase of $400,000 from the budget included in the original loan
                 agreement. However, as of September 2006, CityVest had spent $525,000, more
                 than two and a half times the budgeted amount, on land or building acquisition
                 and $938,287, nearly twice as much the budgeted amount, on professional and
                 financial fees (see appendix F). Moreover, although the project budget showed
                 that $4 million was budgeted for construction, which was an increase of $1.5
                 million from the budget included in the original loan agreement, CityVest spent
                 only $67,739 on construction costs. CityVest spent $3.2 million on demolition
                 costs. Classifying these costs as construction costs rather than demolition costs,
                 which is what they were, was misleading. The County should have reported the
                 actual expense amounts to the board of commissioners and other involved parties.
                 The County had the ability to provide this information because it drew down
                 Block Grant funds and released them to CityVest based upon the presentation of
                 receipts by CityVest for approved expenditures. The regulations at 24 CFR
                 570.209(c) state that if, after the grantee enters into a contract to provide
                 assistance to a project, the scope or financial elements of the project change to the
                 extent that a significant contract amendment is appropriate, the project should be
                 reevaluated under the guidelines of 24 CFR 570.209 and the recipient’s
                 guidelines. Without complete and accurate expenditure data, decision makers and
                 other involved parties lacked significant information on which to evaluate the
                 future of the project.

    The County Did Not Ensure
    That Required Audits Were
    Performed

                 The County did not ensure that CityVest complied with the audit requirements of
                 Office of Management and Budget (OMB) Circular A-133 5 and its loan
                 agreement. OMB Circular A-133 requires non-Federal entities that expend
                 $500,000 or more in Federal funds in any given fiscal year 6 to have an
                 independent audit conducted that complies with the requirements of the circular. 7
                 The loan agreement and amended loan agreement reiterated these requirements.

5
  Audits of States, Local Governments, and Non-Profit Organizations
6
  The threshold amount for conducting an audit was increased from $300,000 to $500,000 for fiscal years ending
after December 31, 2003.
7
  If Federal funds expended in any fiscal year total $500,000 or more and funding is from more than one Federal
program, a single audit must be conducted. If Federal funds expended in any fiscal year total $500,000 or more and
are from only one Federal program, the recipient has the option to have a program-specific audit conducted. A
single audit means an audit that includes both the entity’s financial statements and the Federal awards. A program-
specific audit means an audit of one Federal program. Generally, non-Federal entities that expend less than
$500,000 per year in Federal awards are exempt from Federal audit requirements for that year.


                                                         8
           However, the County had no copies of these required audits in its files, although
           at least three audits should have been completed. The County stated that
           CityVest’s fiscal year was September 1 to August 31. The table below shows the
           expenditure of loan funds by CityVest’s fiscal year.

                        CityVest       Total loan         OMB dollar
                       fiscal year    expenditures     threshold for audit
                          2003           $284,657           $300,000
                          2004           $130,717           $500,000
                          2005           $311,027           $500,000
                          2006           $915,054           $500,000
                          2007         $3,690,122           $500,000
                          2008           $668,317           $500,000
                          Total        $5,999,894

           In addition, the loan agreements required CityVest to have program audits
           conducted in any fiscal year in which it expended Federal funds of less than
           $500,000. The agreements required the audits to be conducted annually and
           submitted to the Luzerne County Office of Community Development. Therefore,
           CityVest was required to conduct audits annually. However, the County had no
           copies of any of these required audits in its files.

CityVest Incurred an
Unreasonable and Unnecessary
Expense

           CityVest incurred an unreasonable and unnecessary expense when it expended
           $303,000 in loan funds to satisfy municipal liens on a property that it purchased,
           which was adjacent to the Hotel Sterling. The City of Wilkes-Barre filed the
           municipal liens on June 20, 2005, against the former property owner for
           demolition work. CityVest acquired the property on March 20, 2006. On
           December 1, 2006, the City billed CityVest $303,000 to satisfy the liens. On
           March 12, 2007, the County drew down $303,000 in Block Grant funds to pay the
           liens. However, payment of the liens was the responsibility of the former
           property owner. If CityVest had paid off the liens at the time of settlement, the
           $303,000 should have been deducted from the sale price of the property, which is
           customary, but in this case, it was not because the liens were not recorded on the
           settlement sheet.

           Regulations at 2 CFR Part 225, appendix A(C)(1)(a) and (i), state that costs must
           be necessary and reasonable for proper and efficient performance and
           administration of Federal awards and be the net of all applicable credits.
           Regulations at 2 CFR Part 225, appendix A(C)(2), state that a cost is reasonable if
           in its nature and amount, it does not exceed that which would be incurred by a


                                            9
                 prudent person under the circumstances prevailing at the time the decision was
                 made to incur the cost. The question of reasonableness is particularly important
                 when governmental units or components are predominately federally funded. In
                 determining reasonableness of a given cost, consideration should be given to
                 whether the cost is of a type generally recognized as ordinary and necessary for
                 the operation of the governmental unit or the performance of the Federal award.

    The Project Had Not Met Its
    Designated National Objective

                 CityVest has spent $6 million in Block Grant funds on the Hotel Sterling project.
                 Ultimately, the loan agreement required CityVest to create 175 permanent full-
                 time-equivalent jobs, with 90 of those jobs benefiting low- and moderate-income
                 persons. All Block Grant-assisted activities are required to meet the program’s
                 eligibility criteria found in 24 CFR 570.200 to 570.206 and one of the three
                 national program objectives described in 24 CFR 570.208. 8 The regulations at 24
                 CFR 570.506(b) require the County to maintain records demonstrating that each
                 activity meets the Block Grant program’s national objective requirements. For
                 this project, the national objective to be achieved was benefit to low- and
                 moderate-income persons through job creation or retention activities. However,
                 as of August 2012, the project was not complete, and no jobs had been created.
                 The following pictures show the condition of the hotel.




8
 Block Grant-assisted activities must meet one of the three national program objectives: (1) benefit low- and
moderate-income persons, (2) prevent or eliminate slums or blight, and (3) meet community development needs
having a particular urgency.

                                                       10
Front and side view of the hotel, May 25, 2011




Front view of the hotel, May 25, 2011




                                        11
                   Rear view of the hotel, May 25, 2011




                   Roof of the hotel, August 11, 2011 9




9
    Photographs from the November 18, 2011, edition of the Citizen’s Voice

                                                          12
Interior of the hotel, August 9, 20119




Interior of the hotel, August 9, 20119




                                         13
            Roof of the hotel, August 11, 2011 9



The Project Will Not Meet Its
Designated National Objective


            The project will not meet its designated national objective because the City of
            Wilkes-Barre declared the structure unsafe and now the City and the County plan
            to demolish the hotel. The City solicited requests for proposals for demolition
            and the demolition will cost about $500,000. The City requested that the County
            split the demolition cost with it. As a result, nearly 10 years would have passed
            since the County entered into its initial loan agreement with CityVest, and $6
            million in Block Grant funds would have been spent on a deteriorated hotel and a
            project that won’t meet its national program objective.

HUD Questioned the Eligibility
of the Project Based on Its
Failure To Meet a National
Objective

            From September 9 to October 19, 2011, HUD’s Philadelphia Office of
            Community Planning and Development conducted a remote monitoring review of
            the County’s open and canceled Block Grant projects. This effort was also a
            result of HUD Office of Inspector General (OIG) audit report 2012-PH-0001.
            HUD determined that the CityVest project did not meet its national objective

                                                   14
             criteria and questioned whether the project would meet it in the future. Later, the
             Philadelphia office appealed to the HUD headquarters Office of Block Grant
             Assistance to determine whether this activity should be canceled from the
             County’s Block Grant inventory and whether it should apply sanctions against the
             County. As of the date of this audit report, HUD headquarters had not made a
             decision regarding this project.

Conclusion

             The County did not properly evaluate and underwrite its loan to CityVest. The
             project won’t meet its designated job creation national objective. The County
             lacked procedures to properly evaluate and underwrite its loan to CityVest and did
             not properly monitor the project. As a result, the County disbursed $6 million in
             Block Grant funds for a project that failed to achieve its job creation national
             objective. Therefore, the $6 million expended for this project was ineligible. To
             correct this situation, the County needs to reimburse its loan program $6 million
             and develop and implement comprehensive procedures for (1) evaluating and
             underwriting proposed projects before approving applications for business
             development loans, and (2) monitoring Block Grant-assisted activities.

Recommendations

             We recommend that the Director of HUD’s Philadelphia Office of Community
             Planning and Development direct the County to

             1A.    Reimburse its business development loan program $5,999,894 from non-
                    Federal funds for the ineligible expenditures related to the Hotel Sterling
                    project.

             1B.    Develop and implement comprehensive procedures for evaluating and
                    underwriting proposed projects before approving applications for business
                    development loans.

             1C.    Develop and implement comprehensive procedures for effectively
                    monitoring Block Grant-assisted activities.




                                             15
                        SCOPE AND METHODOLOGY

We conducted the audit from March through June 2012 at the County’s office located at 54 West
Union Street, Wilkes-Barre, PA, and at our office located in Philadelphia, PA. The audit covered
the period January 2010 through February 2012 but was expanded when necessary to include
other periods. We did not rely on any computer-processed data during the audit.

To achieve our audit objective, we

   •   Obtained relevant background information.

   •   Reviewed HUD regulations at 24 CFR Part 570 regarding the Community Development
       Block Grant program and other applicable HUD regulations and guidance.

   •   Reviewed minutes from meetings of the County’s board of commissioners and
       CityVest’s board of directors.

   •   Reviewed the County’s policies and procedures as outlined in its Business Development
       Loan Program Handbook related to loan applications, loan approvals, monitoring and
       evaluation, and closing.

   •   Interviewed relevant County staff and officials from HUD’s Philadelphia Office of
       Community Planning and Development.

   •   Reviewed the County’s business development loan portfolio.

   •   Reviewed CityVest’s loan application and loan agreements.

   •   Reviewed loan fund draws totaling $6 million and the documentation supporting those
       expenditures.

   •   Reviewed the June 15, 2001, feasibility study for the project and other correspondence
       and documentation maintained in the County’s files for the CityVest loan.

   •   Observed and photographed the physical condition of the Sterling Hotel.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               16
                              INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls

               We determined that the following internal controls were relevant to our audit
               objective:

               •      Policies and procedures that the County implemented to ensure that activities
                      met established program objectives and requirements.

               •      Policies and procedures that the County implemented to ensure that resource
                      use was consistent with applicable laws and regulations.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

 Significant Deficiency

               Based on our review, we believe that the following item is a significant deficiency:

               •      The County lacked comprehensive procedures for (1) evaluating and
                      underwriting proposed projects before approving applications for business


                                                 17
development loans, and (2) effectively monitoring Block Grant-assisted
activities.




                        18
                                   APPENDIXES

Appendix A

                SCHEDULE OF QUESTIONED COSTS
                         Recommendation
                                                 Ineligible 1/
                             number
                               1A                $5,999,894



1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.




                                            19
Appendix B

        AUDITEE COMMENTS AND OIG’S EVALUATION


Ref to OIG Evaluation   Auditee Comments




Comment 1


Comment 2




Comment 3
Comment 4



Comment 5



                         20
Comment 6


Comment 7

Comment 8
Comment 9



Comment 10

Comment 11




Comment 12
Comment 13




Comment 14
Comment 17

Comment 9




             21
Comment 14
Comment 15


Comment 14
Comment 16


Comment 14


Comment 9


Comment 17
Comment 14

Comment 18
Comment 19

Comment 14
Comment 20
Comment 14
Comment 21

Comment 22

Comment 16
Comment 21
Comment 11




             22
Comment 23




             23
24
25
26
                         OIG Evaluation of Auditee Comments

Comment 1   The County’s statements are unsupported. We did not audit the County’s
            program from its inception.

Comment 2   As part of our normal process, we included the auditee’s complete written
            response to the draft report as an appendix in the final audit report.

Comment 3   The audit report reflects the language from the complaint. The complaint alleged
            possible misappropriation of funds. The Inspector General Act of 1978 gave
            HUD OIG the authority to initiate, carry out and complete independent and
            objective audits of HUD programs and operations. We initiate audits based on
            information obtained from program officials, program research, complaints,
            congressional requests and risk assessments. These audits include performance
            audits, which determine whether programs are achieving the desired results or
            benefits in an efficient and effective manner.

Comment 4   The Integrated Disbursement and Information System (IDIS) is the drawdown and
            reporting system for all of HUD’s Office of Community Planning and
            Development (CPD) formula grant programs including the Block Grant program.
            The other CPD formula grant programs covered by the System are the HOME
            Investment Partnerships program, Emergency Shelter Grant, and Housing
            Opportunities for Persons with AIDS. Grantees also use the System for tracking
            American Recovery and Reinvestment Act of 2009 CPD programs. As a
            nationwide database, the System is intended to provide HUD with current
            information regarding CPD activities underway across the Nation, including
            funding data. The System is used by HUD in managing the activities of more
            than 1,200 HUD grantees, including urban counties and States, which use the
            System to plan projects and activities, draw down program funds, and report on
            accomplishments. HUD also uses the System to generate reports used within and
            outside HUD, including the public, participating jurisdictions, and Congress.
            Grantees are able to update, change, cancel, reopen, and increase or decrease
            project funding in the System without review by HUD.

Comment 5   The County’s statement is unsupported. The word “properly” does in fact appear
            in regulations applicable to the County’s program, for example, in the regulations
            at 24 CFR 570.509 and 2 CFR Part 225. However, we used the words “did not
            properly” in the audit report to summarize and characterize our overall conclusion
            regarding the County’s lack of evaluation, underwriting, and monitoring of its $6
            million loan to CityVest.

Comment 6   As stated in the audit report, the County was responsible for properly evaluating
            and underwriting its $6 million loan to CityVest. HUD regulations at 24 CFR
            570.209(a) provide the County guidelines designed to provide a framework for
            financially underwriting and selecting Block Grant-assisted economic

                                            27
            development projects that are financially viable and will make the most effective
            use of Block Grant funds. The objectives of the underwriting guidelines include
            ensuring that project costs are reasonable; all sources of project financing are
            committed; the project is financially feasible; and to the extent practicable, Block
            Grant funds are disbursed on a pro rata basis with other finances provided to the
            project. However, the County’s policies and procedures for evaluating and
            underwriting its Block Grant loans consisted solely of a single-page checklist that
            failed to adequately cover key HUD guidelines. HUD’s underwriting guidelines
            recognized that different levels of review may be appropriate to take into account
            the size and scope of a proposed project. Although the HUD guidelines for
            evaluating project costs and financial requirements are not mandatory, HUD
            expects recipients to properly evaluate and underwrite these loans. HUD expects
            recipients, when they develop their own programs and underwriting criteria, to
            take these factors into account. Given that the $6 million loan the County made to
            CityVest was by far the largest loan in its business development loan portfolio, it
            was reasonable to expect the County to have conducted more than a cursory level
            of evaluation and underwriting before making the loan.

Comment 7   We disagree with the County’s assertion that a thorough evaluation was done. As
            stated in the audit report, the County approved the loan although the project
            lacked a plan; the County did not ensure that other project funds were committed
            to the project; the County did not properly assess the feasibility of the project and
            evaluate the project’s costs; the project did not comply with HUD’s jurisdiction
            requirements; the County did not properly monitor the project; and the County did
            not ensure that required audits were performed.

Comment 8   Contrary to the County’s assertion, it did not include a copy of the June 2001
            study with its written response to the audit report. As stated in the audit report,
            the County alleged that a feasibility study for the project was performed in 2001
            to support its evaluation of the project and its costs. The nine-page document,
            dated June 15, 2001, and labeled a feasibility study, contained five pages of
            photographs and drawings of the project site and a page providing information on
            the physical location of the project site and background on CityVest. Although
            the remaining three pages were numbered, the pages were labeled “sample budget
            scenario” for “site considerations;” “project construction components;” and “soft
            costs and summaries.” All three pages were marked “DRAFT” in bold letters.
            This nine-page document did not constitute a valid feasibility study because, as
            stated in its October 2002 loan application, CityVest did not know the exact future
            use of the Hotel Sterling. Without knowing the exact future use of the site, there
            were no valid, detailed project costs to be reviewed. Moreover, CityVest paid for
            this study. There was no evidence that the County performed an independent
            evaluation to assess the prospects for the project’s success. It was not clear what
            CityVest intended to do with the loan funds.




                                             28
Comment 9     The Office of Community Development’s written “evaluation” to the
              commissioners prior to their approval of CityVest’s loan application on
              October 16, 2002, stated that it was based upon information contained in
              CityVest’s loan application. As stated in the audit report, we found no evidence
              that the County performed an independent evaluation to assess the prospects for
              the project’s success.

Comment 10 In light of the County’s statement, we expect that it will be receptive to our
           recommendations and implement corrective actions to meet the intent of those
           recommendations.

Comment 11 The County provided no documentation to support its statements. Since the
           County’s business development loan program was originated with Block Grant
           funding the subsequent repayment of loaned funds and the interest earned on the
           loaned funds are considered Block Grant funds.

Comment 12 The audit report stated that the County approved a loan for a project that lacked a
           plan.

Comment 13 The audit report stated the County did not ensure that other project funds were
           committed to the project.

Comment 14 The County provided no documentation to support these statements.

Comment 15 Susquehanna Real Estate LP issued a study dated March 31, 2011, that offered
           options for redevelopment of the Hotel Sterling site. It stated that after a
           comprehensive gathering and analysis of studies, information, and plans as well
           as a physical review and inspection of the building, the Susquehanna team
           concluded that there were three possible alternative development strategies. Each
           was detailed and analyzed in the context of financial costs and feasibility, historic
           and public perspective, practicality, legal and liability issues, as well as the
           implementation factor - a scoring that reflects the likelihood of being able to
           overcome challenges in order to actually get a project going. In addition, there
           were critical building factors present that weighed on each alternative. Because
           of a rapidly deteriorating building condition, time and inertia were working
           against the interests of those seeking to initiate a successful redevelopment
           strategy. Having been open to the elements for an extended period, and with the
           resulting water infiltration, the building had suffered sufficient degradation to the
           point where a series of events such as major snow load, high wind storm, or
           movement of the make-shift support bracing could result in a catastrophic failure
           of the building or integrity of the exterior facade. Because of all of these factors,
           there was urgency in coming to a decision on how to move forward. Although
           numerous possibilities and combinations were potentially available for discussion
           and review, the team reduced these down to the three basic options detailed as
           follows:

                                               29
                          1. Preservation and restoration of the existing building
                          2. Partial demolition with retention of the 1st and 2nd levels
                          3. Complete demolition and site preparation

                       Susquehanna stated that each of these options was considered in the context of
                       likely uses appropriate for the building and site based on the findings of the team's
                       marketing research. Susquehanna concluded that the full demolition option
                       represented the most rational and economic approach while preserving the
                       opportunity to develop the site when market conditions will allow it to achieve its
                       highest and best use. The costs of this approach to resolve the immediate issues
                       facing the building are in the range of $1 to $2 million allowing for some site
                       enhancement until a new major development can be implemented. The City
                       solicited requests for proposals for demolition and the County commissioners
                       voted on September 25, 2012, to demolish the hotel. The estimated cost of the
                       demolition was $492,729.

Comment 16 The County’s statement is unsupported. The success of the new developer, the
           accompanying jobs to be created, and tax revenue to be generated remain to be
           seen. The County believed that the first developer (CityVest) would be successful
           revitalizing the Hotel Sterling site and after 10 years since first agreeing to loan it
           funds, $6 million has been spent on a project that failed to achieve its job creation
           national objective resulting in a deteriorated hotel that the City and County now
           plan to demolish.

Comment 17 Contrary to the County’s assertion, CityVest was a subrecipient. The regulations
           at 24 CFR 570.500(c) define a subrecipient as a public or private nonprofit
           agency, authority, or organization, or authorized for-profit entity receiving Block
           Grant funds from the recipient or another subrecipient to undertake activities
           eligible for such assistance.

Comment 18 We did not make any reference to 24 CFR Part 84 in the audit report.

Comment 19 As stated in the audit report, the County did not ensure that CityVest complied
           with the audit requirements of Office of Management and Budget (OMB) Circular
           A-133 and its loan agreement. OMB Circular A-133 required non-Federal entities
           that expended $500,000 or more 10 of Federal funds in any given fiscal year to
           have an independent audit conducted that complied with the requirements of the
           circular. The loan agreement and amended loan agreement reiterated these
           requirements. However, the County had no copies of these required audits in its
           files although at least three audits should have been completed. We did not
           request a copy of the County’s Single Audit because it would not address these
           requirements. Regardless, at the exit conference, we asked the County to provide
           any documentation that it believed we needed to consider to address any issues

10
     See footnote 6.

                                                        30
              presented in the draft audit report and the County provided no additional
              documentation.

Comment 20 We disagree with the County’s assertion. As stated in the audit report, CityVest
           incurred an unreasonable and unnecessary expense. On June 20, 2005, the City of
           Wilkes-Barre filed two municipal liens against the former owner of a property
           that CityVest acquired on March 20, 2006. The former property owner was
           responsible for paying the liens. If CityVest had paid off the liens at the time of
           settlement, the $303,000 should have been deducted from the sale price of the
           property, which is customary, but in this case, it was not because the liens were
           not recorded on the settlement sheet.

Comment 21 We disagree with the County’s characterization of this situation as fortunate. In
           our opinion, we believe the exact opposite is true. Due to its failure to properly
           evaluate, underwrite, and monitor its loan to CityVest, the County allowed $6
           million to be spent on project that failed to achieve its job creation national
           objective resulting in a deteriorated hotel that now needs to be demolished. The
           ultimate success of redeveloping the site to create jobs for County residents has
           yet to be demonstrated.

Comment 22 The County qualified its loan of Block Grant funds to CityVest based on an
           expectation that the project would create at least 80 permanent full-time-
           equivalent jobs benefiting low- and moderate-income persons. That has not
           happened nor has the expenditure of the $6 million of Block grant funds for this
           project resulted in the elimination of slum and blight. Rather, the County’s failure
           to properly evaluate, underwrite, and monitor this project has contributed to the
           site of the Hotel Sterling being a blight in the community over the last 10 years.

Comment 23 As stated in the audit report, since the project failed to achieve its job creation
           national objective, the $6 million expended for this project was ineligible.
           Ineligible costs are costs charged to a HUD-financed or HUD-insured program or
           activity that the auditor believes are not allowable by law; contract; or Federal,
           State, or local policies or regulations.




                                              31
Appendix C

      PROJECT BUDGET FROM LOAN APPLICATION




                       32
Appendix D

      PROJECT BUDGET FROM LOAN AGREEMENT




                      33
Appendix E

 PROJECT BUDGET FROM AMENDED LOAN AGREEMENT




                     34
Appendix F

               CITYVEST EXPENDITURE SUMMARY

                                Total expenditures

          Description                    Amount                     Percentage
   Demolition                            $3,213,714                   53.6%
   Acquisitions                          $1,497,144                   25.0%
   Real estate advisor fees                $688,540                   11.5%
   Engineering fees                        $302,645                    5.0%
   Attorney fees                           $124,180                    2.1%
   Insurance fees                           $92,281                    1.5%
   Construction                             $67,739                    1.1%
   Miscellaneous fees                       $13,651                    0.2%
   Total                                 $5,999,894                   100%

           Expenditures as of August 31, 2006, by project budget

             Project budget                     Amount           Project budget –
             cost description                  expended          loan agreement
   A1. Land or building acquisition             $525,000              $200,000
   A2. Construction cost to contractor          $178,168            $2,500,000
   A3. Professional and financial fees          $938,287              $100,000
   A4. Machinery and equipment                        $0            $1,200,000
   Total                                      $1,641,455            $4,000,000

     Total expenditures compared to loan agreement project budgets

                                                                    Project budget -
        Project budget            Amount         Project budget -    amended loan
        cost description         expended        loan agreement       agreement
   A1. Land or building
   acquisition                   $1,497,144           $200,000           $200,000
   A2. Construction cost to
   contractor                    $3,281,453         $2,500,000         $4,000,000
   A3. Professional and
   financial fees                $1,221,297           $100,000           $500,000
   A4. Machinery and
   equipment                             $0         $1,200,000         $1,300,000
   Total                         $5,999,894         $4,000,000         $6,000,000


                                            35
